 FAA’S PROCESS FOR REPORTING AND
INVESTIGATING OPERATIONAL ERRORS
       Federal Aviation Administration
        Report Number: AV-2009-045
        Date Issued: March 24, 2009
           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA’s Process for Reporting and                                           Date:    March 24, 2009
           Investigating Operational Errors
           Federal Aviation Administration
           Report Number AV-2009-045

  From:    David A. Dobbs                                                                 Reply to
                                                                                          Attn. of:    J-2
           Deputy Inspector General

    To:    Acting Federal Aviation Administrator

           This report presents the results of our review of the Federal Aviation Administration’s
           (FAA) process for reporting and investigating operational errors. Operational errors
           (when a controller fails to maintain separation between two aircraft) can be extremely
           serious incidents that can lead to a catastrophic accident. Ensuring that all events
           involving a loss of separation are accurately reported, investigated, and addressed is
           critical to the safe operation of the National Airspace System.

           In October 2007, Congressman James Oberstar, Chairman of the House Committee
           on Transportation and Infrastructure, and Congressman Jerry Costello, Chairman of
           the House Subcommittee on Aviation, requested that our office audit FAA’s process
           for identifying and reporting operational errors. This request was prompted by our
           then-ongoing investigation at the Dallas Fort-Worth (DFW) Terminal Radar
           Approach Control (TRACON) facility, which we conducted after whistleblowers
           alleged that facility management was intentionally misclassifying operational errors. 1

           Our investigation at DFW had found that Air Traffic managers at the TRACON were,
           in fact, intentionally misclassifying operational errors as either pilot deviations or
           “non-events.” 2 We identified 62 operational errors and deviations that were either
           incorrectly reported as pilot deviations (39) or misclassified as “non-events” (23).
           Further, FAA’s Service Area and Headquarters safety oversight processes and
           controls failed to uncover this practice despite FAA’s prior assurances to our office in
           2005 that it would not allow operational errors to go unreported.

           1
               OIG Report Number CC-2007-083, Alleged Cover-Up of Operational Errors at DFW TRACON,” April 18, 2008.
               OIG reports are available on our website: www.oig.dot.gov.
           2
               Non-events are those incidents that facility personnel reviewed but determined there was no loss of separation.


                                                                         i
Specifically, Chairmen Oberstar and Costello requested that we determine whether
the operational error reporting problems found at the DFW TRACON were occurring
at other Air Traffic facilities. Accordingly, our audit objectives were to (1) determine
whether FAA has adequate policies and procedures to ensure accuracy and
consistency in operational error reporting and (2) review the roles and responsibilities
of the Air Traffic Organization and FAA’s Aviation Safety line of business in
reporting and investigating operational errors.

We conducted this audit between November 2007 and December 2008 in compliance
with generally accepted Government Auditing Standards as prescribed by the
Comptroller General of the United States. Exhibit A details our review scope and
methodology, and exhibit B lists the FAA offices and facilities we visited.

BACKGROUND
To ensure that safe distances are maintained between aircraft while under the control
of air traffic controllers, FAA has minimum separation standards that must be
maintained based on the aircraft’s phase of flight and size. During the en route phase
of flight, 3 aircraft must be separated 5 miles laterally or 1,000 to 2,000 feet vertically
(depending on altitude). During the departure and arrival phase of flight, 4 aircraft
must be separated by 3 miles or more horizontally (depending on aircraft size) or
1,000 feet vertically.

To maintain these minimum separation standards, controllers are responsible for
providing instructions to pilots. If a loss of separation occurs between two aircraft, in
most cases it is classified as either an operational error (if the controller’s actions
caused the loss), a pilot deviation (if the pilot’s actions caused the loss), or both.
When a suspected loss of separation occurs, the Air Traffic facility where the incident
occurred is responsible for initially investigating and classifying the incident and
preparing a preliminary report. The Air Traffic facility then forwards the operational
error report to the appropriate Air Traffic Organization (ATO) Service Area (Regional
office) and Service Unit (Headquarters’ Terminal or En Route office) for review, after
which it is forwarded to Headquarters ATO Safety Office for final review. Pilot
deviations are forwarded to the responsible Aviation Safety Flight Standards office,
which will conduct a full investigation and prepare a final report (see figure 1 below).




3
    The en route phase includes aircraft flying at higher altitudes, generally above 17,000 feet under the control of en route
    facilities.
4
    This phase includes aircraft within the immediate area of an airport, generally within 0 to 40 miles of the airport under the
    control of tower and TRACON (i.e., terminal) facilities.


                                                                ii
     Figure 1. FAA’s Process for Reporting and Investigating Incidents Involving a
                                 Loss of Separation


Loss of separation identified         Controller Facility prepares preliminary                      Air Traffic facility completes
by Air Traffic facility.                Error    investigation report and                           investigation and final report
Initial determination is made                    forwards report to                                 and forwards report to
if the incident was controller                   appropriate ATO Service                            appropriate ATO Service
or pilot error.                                  Area and Unit for review.                          Area and Unit for review.

        Pilot
        Error                                Facility copies
                                             Service Area and
  Preliminary report                         Unit and HQ Safety                    After review by Service Area
  forwarded to Flight                        on preliminary                        and Unit, report is forwarded
  Standards inspector who                    report.                               to Headquarters ATO Safety
  completes investigation and                                                      office for review.
  final report.

                                                                                          ATO Safety
                                                                                          Office conducts
                                                                                          final review.
    RESULTS IN BRIEF
    Events at DFW TRACON Were Not Systemic, but Significant
    Weaknesses Exist in FAA’s Processes for Reporting and Investigating
    Incidents Involving a Loss of Separation
    We found that the problems identified at the DFW TRACON were not systemic. To
    determine this, we randomly selected 13 Air Traffic facilities for review and
    statistically selected and reviewed 166 pilot deviations that had a loss of separation.
    We also judgmentally reviewed 206 other “non-events” at the 10 facilities we visited.
    We found only 3 misclassified incidents (out of the total 372 examined) that should
    have been reported as operational errors—significantly less than the 62 reported at
    DFW. Based on this sample, we statistically project that there were between 1 and
    7 pilot deviations systemwide (excluding DFW) in fiscal year (FY) 2007 that should
    have been classified as operational errors. 5

    However, we did identify control and oversight weaknesses in FAA’s process for
    reporting and investigating losses of separation caused by pilots and controllers that
    could allow similar problems to occur in the future. Contributing factors to these
    weaknesses were inadequate FAA guidance on how to investigate these events and
    insufficient staffing in the ATO Safety Office. We identified four areas where FAA
    should focus its actions to ensure all losses of separation are accurately reported and
    investigated.
    5
        Based on a 90-percent confidence level and a universe of 484 pilot deviations involving a loss of separation.


                                                                   iii
Additional actions and follow-up are needed from FAA’s Flight Standards
Service to improve the procedures for reporting and investigating pilot
deviations. We found that Flight Standards Service did not consistently investigate
pilot deviations because of control weaknesses in FAA’s guidance. For example, we
found inspectors did not always verify the accuracy of Air Traffic’s preliminary report
and even failed to investigate incidents altogether when they were referred to the
airlines’ Aviation Safety Action Program (ASAP). 6 In other incidents, it was unclear
if inspectors performed a thorough investigation because they did not document their
results.

During our review, FAA issued new guidance to address these control weaknesses.
For example, inspectors are now required to verify the accuracy of all data in
preliminary reports, including those referred to ASAP, and must fully describe the
pilot deviation, including causal factors. FAA trained its managers on the new
requirements in August 2008 and completed its training for field inspectors in October
2008. While those actions represent progress, FAA will need to follow up once the
requirements are implemented to ensure inspectors are complying with the new
procedures.

FAA needs to consistently evaluate losses of separation caused by both
controllers and pilots. Unlike its process for operational errors, FAA does not rate
the proximity of (i.e., how close two aircraft came to one another) or have a goal for
reducing the risk of pilot deviations that cause a loss of separation. This is despite the
fact that pilot deviations can pose the same risk for a catastrophic accident as
operational errors. FAA rates controller operational errors by proximity—from
category A to C—and maintains goals for reducing category A and B incidents.
(Category A is the most serious, i.e., the aircraft came very close to one another.
Category C is the least serious, i.e., most of the required separation was maintained.)

For example, on July 6, 2007, while under control of the Atlanta TRACON, two
regional jets narrowly avoided a collision when a pilot flew in the wrong direction.
The aircraft were at the same altitude and came within about 3,300 feet of each other
horizontally. Had this been a controller operational error, it would have been
classified as a serious event. However, because it was a pilot deviation, the severity
was not measured and no analysis was conducted to determine if similar deviations
were occurring so that corrective actions could be taken systemwide.

We applied FAA’s proximity rating system for operational errors (using distance and
altitude parameters for categories A through C) to estimate the severity of pilot
deviations that occurred while under control of en route and TRACON facilities
during FY 2007.
6
    ASAP is a program in which air carrier employees can report potential safety issues without fear of enforcement action
    from FAA. Incident data obtained by the air carrier through the ASAP process is maintained by the air carrier and
    protected from disclosure.


                                                            iv
Of the 478 pilot deviations, we estimate that 33 percent would have been rated as
serious category A or B incidents.

If FAA were to categorize the severity of losses of separation caused by pilots in a
similar manner, it could focus on the most serious incidents, identify potentially
systemic issues, and take corrective actions on those that require attention at the
national level. For example, within our sample of 166 pilot deviations, we found:

 • 53 incidents occurred when the pilots acknowledged and read back the correct
   altitude assigned but then deviated to a different altitude;
 • 27 incidents occurred because the pilots either had equipment malfunctions or did
   not accurately program their aircraft navigational equipment; and
 • 19 incidents occurred because the pilots did not follow established departure or
   arrival procedures, including those established by newly implemented area
   navigation (RNAV) procedures.

To effectively reduce the risk of mid-air collisions, FAA should establish a process to
rate the severity of pilot deviations that cause a loss of separation and establish a
corresponding goal to reduce the most severe incidents.

FAA needs to implement the Traffic Analysis and Review Program (TARP) as a
full-time separation conformance tool to ensure all losses of separation are
accurately reported. Unlike en route centers, terminal facilities do not have a
system to automatically report losses of separation. Instead, managers at terminal
facilities rely on controllers to self-report those incidents. FAA is aware of this
problem and is developing TARP—an automated tool that will allow FAA to identify
when operational errors (or other losses of separation) occur at terminal facilities.

FAA plans to implement TARP as an audit tool only at all TRACONs by the end of
2009. According to FAA managers, additional technical and infrastructure changes
will be needed before TARP can be used reliably on a full-time basis. However, FAA
has not established milestones and deadlines for when the system will be fully
operational.

While using TARP as an audit tool should help FAA to determine if operational errors
have been misclassified, it does not provide full assurance that losses of separation at
TRACON facilities are being reported and investigated. For this to occur, FAA must
implement the system as a full-time separation conformance tool. To effectively
deploy TARP, FAA must establish milestones for implementation and operational use
and hold managers accountable for meeting them.

Additional FAA actions are needed to improve the ATO’s oversight of the
reporting and investigation process. We found that the ATO’s Safety Office did


                                           v
not have adequate oversight processes and controls for reporting and investigating
loss of separation events. For example, neither the ATO Headquarters nor Service
Center Safety offices discovered or challenged the incidents that were misclassified
by DFW TRACON (62 incidents). These weaknesses occurred, in part, because the
ATO Safety Services did not have enough staff in its Investigation and Evaluations
office. Over the last 10 years, the number of employees in this office has decreased
from 79 to 24 (as of March 2008). FAA is aware of this concern and initiated a
complete review of ATO Safety Services to determine what additional resources are
needed to meet its oversight responsibilities.

ATO Safety Services is also making procedural and organizational changes to
improve its oversight of reporting and classification of losses of separation. For
example, it plans to establish an independent quality assurance office in the three
ATO Service Areas. This new office—not the facility manager—will determine
whether a loss of separation was a pilot or controller error. These changes are
planned for completion by the summer of 2009 and should improve how FAA
oversees reports and investigations for all losses of separation. Once the changes are
implemented, FAA should initiate an internal audit by an independent organization,
such as its Aviation Safety Oversight Office (AOV), to ensure these actions have been
implemented and are being complied with.

SUMMARY OF RECOMMENDATIONS
Our recommendations include establishing (1) a follow-up mechanism to ensure
Flight Standards inspectors comply with new guidance for investigating pilot
deviations, (2) a process to rate the severity of pilot deviations and a corresponding
goal to reduce the most severe incidents, (3) milestones for fully implementing TARP,
and (4) an internal audit of the planned changes to the ATO’s safety oversight. We
are making a total of 7 recommendations, which are listed on page 12 of this report.

SUMMARY OF AGENCY COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
We provided FAA with our draft report on December 30, 2008, and received its
response on March 12, 2009. FAA generally agreed with our recommendations and
provided acceptable corrective actions with two exceptions.

First, FAA did not agree with our recommendation to establish a process to rate the
severity of pilot deviations and a corresponding goal to reduce the most severe
incidents. In its response, FAA stated that it “addresses the seriousness of the
violation during the investigation and adjusts punishment according to the degree of
the violation.” However, our recommendation was not aimed at rating the severity of
pilot deviations to assess punitive actions against pilots on a case-by-case basis.


                                          vi
Rather, we intended for FAA to assess the severity of incidents to advance its risk-
based approach to safety oversight. This would allow FAA to gather macro-level
data, which it could use to identify possible trends, potentially systemic issues, and
corrective actions needed at the national level.

FAA already uses a similar severity rating approach to identify systemic issues for
virtually all other aviation incidents including operational errors, near midair
collisions, and runway incursions. In fact, FAA currently rates the severity of pilot
deviations that occur on the ground (i.e., runway incursions) but not pilot deviations
that occur in the air. Given that aviation safety is FAA’s primary mission, we are
concerned that the Agency would bypass an opportunity to advance its risk-based
approach at the national level. Accordingly, we believe FAA needs to reconsider its
position.

Second, FAA did not agree with our recommendation to assign a regional Flight
Standards liaison (which could be a collateral position) to assist the ATO Safety
Services staff in determining whether losses of separation are pilot or controller
errors. In its response, FAA stated that “ATO-S will continue to work with [aviation
safety inspectors] to resolve reported violations of air traffic rules and procedures,
eliminating the need to assign a regional Flight Standards Liaison.”

However, the intent of our recommendation was to allow Flight Standards to have
more timely input into losses of separation that were or should have been classified as
a pilot deviation rather than waiting until after the entire ATO investigation process is
completed. FAA’s response seems to indicate that it intends to simply maintain the
status quo. We therefore request that FAA reconsider its position on how it plans to
ensure that Flight Standards has input into the accurate classification of losses of
separation at the “front end” of the process.

FAA’s comments, our response, and further Agency actions required are fully
discussed on pages 13 and 14. FAA’s entire response is included at the appendix to
this report. We appreciate the courtesies and cooperation of FAA representatives
during this audit. If you have any questions concerning this report, please contact me
at (202) 366-1427 or Daniel Raville, Program Director, at (202) 366-1405.


                                           #

cc: Acting FAA Deputy Administrator
    Anthony Williams, ABU-100




                                           vii
                               TABLE OF CONTENTS


FINDINGS .............................................................................................. 1
    Events at DFW TRACON Were Not Systemic .................................. 1

    FAA Flight Standards Service Needs To Take Additional
    Actions To Ensure All Losses of Separation Are
    Accurately Reported and Investigated To Reduce
    Potential Safety Risks ....................................................................... 4

    FAA Needs To Ensure Losses of Separation Caused by
    Controllers and Pilots Are Evaluated Consistently............................ 6

    FAA Needs To Implement TARP as a Full-Time
    Separation Conformance Tool To Ensure That All
    Losses of Separation Are Accurately Reported ................................ 7

    FAA Needs To Take Additional Actions To Improve the
    ATO’s Oversight Role of Reported Losses of Separation................. 9

RECOMMENDATIONS........................................................................ 12
AGENCY COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE....................................................................... 13
EXHIBIT A. SCOPE AND METHODOLOGY ..................................... 15
EXHIBIT B. ORGANIZATIONS VISITED OR
CONTACTED....................................................................................... 17
EXHIBIT C. PRIOR AUDIT REPORTS............................................... 18
EXHIBIT D. MAJOR CONTRIBUTORS TO THIS
REPORT .............................................................................................. 19
APPENDIX. AGENCY COMMENTS................................................... 20
                                                                                                                  1



FINDINGS
We found that the events that transpired at DFW TRACON were not systemic.
However, we did identify control and oversight weaknesses in FAA’s process for
reporting and investigating losses of separation caused by pilots and controllers
that could contribute to similar problems in the future. These weaknesses were
due in part to inadequate FAA guidance for investigating these events and
insufficient staffing in the ATO Safety Office. Further, FAA’s current processes
do not ensure that all losses of separation are accurately reported across terminal
and en route facilities or consistently evaluated for severity.

FAA has initiated actions to correct some of these weaknesses, but additional
actions and follow-up are still needed to ensure that all losses of separation are
accurately reported and investigated. Specifically, FAA needs to improve its
process for reporting and investigating losses of separation by (1) improving
inspectors’ procedures for investigating pilot deviations, (2) evaluating losses of
separation caused by pilots and controllers consistently, and (3) implementing
TARP as a full-time separation conformance tool.

FAA also needs to enhance the ATO’s oversight role in ensuring that losses of
separation are reported accurately by (1) implementing planned organizational
changes in a timely manner (2) involving Flight Standards early in the event
determination process, and (3) improving its facility oversight during Air Traffic
facility audits.

Events at DFW TRACON Were Not Systemic
Our sample results identified only 3 incidents (out of the total 372 events
sampled—166 pilot deviations and 206 other or “non-events”) that should have
been reported as operational errors or proximity events in FY 2007.7 Therefore,
we conclude that the problems identified at DFW were not occurring on a system-
wide basis.

To evaluate whether the reporting problems that occurred at DFW TRACON were
occurring at other facilities, we reviewed pilot deviations, quality assurance
reviews (QARs), and Operational Error Detection Program (OEDP) alerts and
related supporting documentation (e.g., radar and voice data). Our analysis is fully
discussed below.




7
    Proximity events are minor losses of separation between two aircraft where 90 percent or greater of the required
    separation is maintained in either the horizontal or vertical plane.


Findings
                                                                                                                       2


    • Pilot Deviations: Our sample results identified only one pilot deviation (at
      Chicago TRACON) that should have been reported as an operational error.
      We reviewed a statistical sample of 166 pilot deviations (with a loss of
      separation) that occurred during FY 2007 at 13 randomly selected Air Traffic
      facilities. We selected these from a total universe of 484 pilot deviations with
      a loss of separation that occurred at 63 TRACON and en route facilities. 8

      Based on the results of our sample, we can statistically project (with a
      90-percent confidence level) that the percentage of misclassified pilot
      deviations is between 0.2 and 1.4 percent. In other words, we can project that
      between 1 and 7 loss of separation events in FY 2007 were misclassified as
      pilot deviations when they should have been classified as operational errors.
      This is significantly less than the 39 operational errors and deviations that were
      misclassified as pilot deviations at DFW TRACON alone.

    • QAR/OEDP Alerts: We also judgmentally sampled 206 QARs and OEDP
      alerts that occurred in FY 2008 at the 10 facilities we visited. Our sample
      results identified only 2 incidents (1 percent) that should have been reported as
      proximity events (at Chicago TRACON and Denver Center). Again, this is
      significantly less than the 23 operational errors and deviations that were
      erroneously reported as “non-events” at DFW TRACON.

      - QARs are reviews conducted of other Air Traffic incidents that do not
        involve an operational error (e.g., pilot complaints, emergencies, etc.).
        These incidents are recorded on facility daily logs and reviewed by facility
        management or other staff to evaluate controller performance. At DFW
        TRACON, we found that the facility improperly recorded 23 operational
        errors as QAR “non-events.”

      - OEDP alerts are generated by a system at en route facilities that
        automatically detects and alerts management when a loss of separation
        occurs. Each OEDP alert is investigated to determine if it is an operational
        error, pilot deviation, or non-event. 9 At en route centers, we judgmentally
        sampled OEDP alerts that the facility investigated and classified as either a
        pilot deviation or a “non-event.” We were unable to do similar tests at
        TRACON facilities because they do not have a corresponding automatic
        system to identify when a loss of separation occurs.


8
    All TRACONs and en route centers that reported a pilot deviation with a loss of separation. We excluded DFW
    TRACON from our universe.
9
    OEDP alerts may be non-events for several different reasons. For example, an OEDP alert may be for aircraft flying
    under Visual Flight Rules (VFR). Under VFR, FAA prescribed separation standards do not apply and pilots assume
    responsibility for maintaining safe separation from other aircraft. The OEDP may also alert when military formation
    flights are operating; again, FAA separation standards do not apply between the military aircraft in such situations.


Findings
                                                                                                 3


As shown in the table below, we identified 3 discrepancies at 2 of the 13 facilities
randomly selected: Chicago TRACON and Denver Center.

     Table. OIG Review of Pilot Deviation and QAR/OEDP Alert
                   Sample Results by Facility

      Facility             PDs             PDs that           QAR/OEDP QAR/OEDP
                         Reviewed         should be             Alerts  Alerts that
                                            OEs                Reviewed should be
                                                                           OEs
    Atlanta                   11               0                  13        0
   TRACON
    Chicago                   10               1                    13                1 (PE)
   TRACON
    No. Cal.                   9               0                     13                  0
   TRACON
   Salt Lake                   5               0                    10                   0
   TRACON
    So. Cal.                  31               0                    14                   0
   TRACON
 Atlanta Center               30               0                    19                   0
Cleveland Center              11               0                    30                   0
 Denver Center                11               0                    30                1 (PE)
   LA Center                  24               0                    40                   0
 Miami Center                 13               0                    24                   0
  Minneapolis                 1                0                   N/A*                N/A
   TRACON
    Portland                   2               0                   N/A*                N/A
   TRACON
 Seattle Center               8                0                   N/A*                N/A
    TOTAL                    166               1                   206                  2
  Key: PD – Pilot Deviation           OE – Operational Error              PE – Proximity Event
* N/A – We did not visit these three facilities and therefore did not review their QAR/OEDP
  alerts.




Findings
                                                                                       4


FAA Flight Standards Service Needs To Take Additional Actions To
Ensure All Losses of Separation Are Accurately Reported and
Investigated To Reduce Potential Safety Risks
While problems that occurred at DFW TRACON were not systemic, we did
identify control weaknesses in FAA’s overall reporting and investigating process
for loss of separation events. Specifically, we found that pilot deviations were not
always investigated thoroughly due to inadequate FAA guidance. During our
review, Flight Standards issued guidance to address many of the weaknesses in the
investigation process. However, additional actions and follow-up are needed to
ensure that pilot deviations are properly reported, classified, investigated, and
addressed.

Pilot Deviations Were Not Always Investigated Thoroughly
During this review and our prior investigation at DFW TRACON, we found
evidence that Flight Standards inspectors responsible for investigating pilot
deviations did not perform a thorough investigation of the incidents. For example:

     • Inspectors did not review pilot deviations that were referred to the airline’s
       Aviation Safety Action Program (ASAP). Instead, we found that some
       inspectors relied solely on the facility’s classification of pilot deviations that
       were referred to ASAP and did not review or validate the accuracy of the
       report. At least 19 of the 166 pilot deviations we reviewed were submitted
       through ASAP.

     • In addition, 20 pilot deviation reports 10 from our sample of 166 pilot deviations
       did not appear to be fully investigated by the inspector. For instance, either the
       inspector’s final report did not provide any details about cause of the incident
       or the narrative section of the inspector’s report was entirely blank. Therefore,
       it was unclear if inspector performed a thorough investigation of the incident.
       We also identified incidents where the inspector erroneously concluded that
       the Air Traffic controller caused the loss of separation when, in fact, we
       determined it was due to pilot error.

Flight Standards Has Issued Guidance To Address Many of the Control
Weaknesses in Its Pilot Deviation Investigation Process
In February, March, and July of 2008, Flight Standards issued guidance that
addressed many of the control weaknesses identified during the DFW TRACON
investigation and this review. For example, Flight Standards guidance now
requires inspectors to:


10
     Note: Not all final reports were available for review.


Findings
                                                                                   5


 • verify the accuracy of data in Air Traffic’s preliminary report, including those
   referred to ASAP.
 • include a full description of the pilot deviation, causal factors, and
   recommendations for systemic correction action. For ASAP pilot deviations,
   inspectors are to request this information from the ASAP Event Review
   Committee.
 • have a review of the final report conducted by the office management and the
   regional office.
 • provide full justification when their investigation determines the pilot deviation
   should be reclassified.

Also, in August 2008, FAA trained its Flight Standards managers on the new
requirements and completed its training of field inspectors on their responsibilities
for investigating operational errors and pilot deviations in October 2008.

While these actions represent progress, FAA Flight Standards will need to follow
up once the requirements are implemented to ensure inspectors are complying
with the new procedures.

FAA Does Not Retain Flight Radar Data, Which Could Be Used To
Validate Inspector Investigations of Losses of Separation
Flight Standards Service inspectors have 90 days to complete their investigation of
an event (e.g., to determine whether the pilot actions constitute a violation of
Federal Aviation Regulations). However, en route and terminal facilities maintain
flight radar data for only 15 and 45 days, respectively. Therefore, if an inspector’s
investigation determines that an event was caused by controller error, key radar
data from the flight may be unavailable to validate the conclusion. FAA’s current
guidelines only specifically require that the voice data be retained for 2½ years for
pilot deviations. Maintaining the radar replay data for pilot deviations with a loss
of separation for a longer period would greatly increase the value and accuracy of
third-party reviews of loss of separation events.

During our review, we were unable to determine if the controller contributed to the
loss of separation for four pilot deviations because radar replay data was not
available. For instance, at one en route facility, we questioned whether the
controller may have contributed to the loss of separation by not instructing the
pilot to turn the aircraft sooner or in a different direction. However, we were
unable to verify this because the radar data were not available to evaluate the
controller’s options at the time of the incident.




Findings
                                                                                   6


FAA Needs To Ensure Losses of Separation Caused by Controllers
and Pilots Are Evaluated Consistently
Unlike its process for operational errors, FAA does not rate the proximity of (i.e.,
how close aircraft came to one another) or have a goal for reducing the risk of
pilot deviations that cause a loss of separation. This is despite the fact that pilot
deviations can pose the same risk for a catastrophic accident as operational errors.
Loss of separation events can vary from minor incidents (where there was no
threat of a collision) to severe incidents (where a collision was barely avoided).
Categorizing the severity of events allows FAA to focus resources on identifying
the root cause and taking immediate corrective actions for those incidents where
there is the greatest potential for another, possibly catastrophic, incident. FAA
rates controller operational errors based on proximity—from A (most serious) to C
(least serious) and maintains goals for reducing category A and B incidents.

We noted recent pilot deviations that would have been rated as severe events
under FAA’s criteria for operational errors. However, because these events were
pilot deviations, the severity of the event was not measured and no analysis was
conducted to determine if similar deviations were occurring so that corrective
actions could be taken systemwide.

For example, on August 13, 2007, while under control of the Southern California
TRACON, a pilot took his plane above his assigned altitude and conflicted with
another aircraft even though he had read back the clearance correctly to the
controller. Using FAA’s operational error severity classification methodology, the
event would have been classified as a serious, category A incident as the 2 aircraft
narrowly missed each other by 100 feet vertically and about 1 half mile
horizontally.

Using FAA’s proximity rating system for operational errors, we estimated the
ratings for pilot deviations that occurred while under control of en route and
TRACON facilities during FY 2007. Of the 478 pilot deviations, we estimate that
33 percent would be rated as serious category A or B incidents.

Figure 2 below is an example of radar display of a pilot deviation (while under the
control of the Seattle en route center) that, if categorized in the same method as
operational errors, would have been rated as a category B event. The event
occurred when a military pilot (EXP094) took his plane above his assigned
altitude and conflicted with a regional air carrier (QXE397). The aircraft came
within 300 feet vertically and 2.96 miles horizontally of each other. The Flight
Standards inspector closed the report with no action, in part, because he did not
think it was significant enough.




Findings
                                                                                  7


        Figure 2. Radar Display of a Serious Pilot Deviation




By evaluating losses of separation caused by pilots in the same manner as those
caused by controllers, FAA would have a clearer understanding of the causes of
these incidents and could use this information to improve both the accurate
classification of the incidents and the safety of the National Airspace System. To
illustrate, we reviewed pilot deviations in our sample and noted several trends that
may need national attention. For example we found that:

 • 53 of the incidents occurred when the pilots acknowledged and read back the
   correct altitude assigned but deviated to a different altitude;

 • 27 occurred because the pilots either had equipment malfunctions or did not
   accurately program their aircraft navigational equipment (e.g., forgot to enter
   changes in the Flight Management System, entered the wrong altitude, or set
   the altimeter incorrectly, etc.); and

 • 19 occurred because the pilots did not follow established departure or arrival
   procedures, including those established by newly implemented area navigation
   (RNAV) procedures.

FAA should establish a process to rate the severity of pilot deviations that cause a
loss of separation and establish a corresponding goal to reduce the most severe
incidents.

FAA Needs To Implement TARP as a Full-Time Separation
Conformance Tool To Ensure That All Losses of Separation Are
Accurately Reported
FAA will not have adequate assurance that losses of separation at TRACON
facilities are reported accurately until it fully implements TARP as a full-time
separation conformance tool. TARP is an automated tool that will identify when
losses of separation occur at terminal facilities. FAA began developing TARP in

Findings
                                                                                     8


2005 to improve operational error reporting in response to our and the National
Transportation Safety Board’s longstanding recommendations. FAA plans to
implement TARP in three phases.

     • During Phase 1, TARP will be used only to conduct terminal facilities’
       required 2-hour monthly radar audits. FAA plans to complete this phase by the
       end of calendar year 2009.

     • In Phase 2, facilities will continue to use TARP as an audit tool but for
       increasing periods of time beyond the current 2-hour requirement. FAA will
       not finalize its Phase 2 implementation strategy until April 30, 2009.

     • In Phase 3, facilities will use TARP continuously (24/7) in the operating
       quarters as a separation conformance tool. However, this will require
       additional technical improvements and infrastructure to operate reliably in this
       capacity. At the time of our review, FAA had not established milestones for
       developing an implementation strategy for this phase.

It will be important that FAA moves expeditiously to implement TARP as a full-
time separation conformance tool. To do this, FAA will need to address potential
barriers. For example, managers expressed concerns that TARP may have a
significant impact on workload. That is, if TARP is constantly alerting for very
minor errors 11 that otherwise cannot be detected on the controller’s radar scope, it
could consume a substantial amount of resources to investigate each alert due to
their sheer volume. FAA officials indicated that they plan to mitigate such
workload issues by programming TARP to automatically fill out the proximity
event form and not require a full investigation.

While FAA is working to address this potential barrier, history shows that
additional barriers or challenges are likely to occur during the implementation of
new systems. One way to proactively mitigate them is to establish a method to
share best practices among facilities. We interviewed personnel from seven
facilities that had received TARP (six certified facilities and one where TARP was
in the testing stage). We found that most thought TARP was a very user-friendly
system and agreed that a process for sharing best practices in using the system
would be helpful. In addition, as FAA develops its implementation strategy for
Phase 2 implementation, it needs to work aggressively in developing milestones
for implementing Phase 3 of TARP.




11
     TARP can identify losses to the hundredth of a mile.


Findings
                                                                                 9


FAA Needs To Take Additional Actions To Improve the ATO’s
Oversight Role of Reported Losses of Separation
FAA has taken several actions to improve its oversight of reporting and
investigating losses of separation caused by pilot and controllers, but additional
actions are still needed to ensure these incidents are reported and classified
accurately. Prior to our DFW TRACON investigation, there was little or no
oversight provided over the accurate classification of losses of separation.

ATO Oversight Processes Were Not Adequate To Identify Potential
Reporting Problems
We found that the ATO Safety Office’s oversight process of reporting and
investigating losses of separation was inadequate. For example, neither the ATO
Headquarters nor the Service Center Safety offices discovered or challenged the
incidents that were misclassified by DFW TRACON. In addition, ATO Safety
Office personnel did not routinely review pilot deviations to ensure they were
accurately reported. Also, if the Flight Standards inspector disagreed with Air
Traffic’s initial classification of a pilot deviation, ATO Safety personnel did not
follow up to verify whether a controller’s actions may have contributed to the
incident.

The weaknesses in the ATO’s oversight occurred, in part, because ATO-Safety
personnel lacked stable leadership and staffing resources to provide adequate
oversight. The ATO did not have a permanent Vice President (VP) for Safety
Services for more than 18 months 12 and has not had a permanent manager for its
Evaluations and Investigations office for 2 years.

Over the last 10 years, the number of employees in this office decreased from 79
to 24 (as of March 2008). In addition, ATO officials told us that hiring qualified
and experienced employees is a challenge because Air Traffic facilities do not
want to give up qualified Air Traffic employees. Further, those officials told us
that there were financial disincentives for employees to transfer from Air Traffic
facilities to Headquarters, as they could experience substantial pay cuts—these
cuts range from $16,000 to $41,000 depending on the pay band.

FAA Is Taking Actions To Revamp the ATO’s Safety Oversight
In response to the problems at DFW TRACON, FAA has either taken or plans to
take several actions to improve its oversight. Specifically:




12
     A permanent VP for Safety Services was hired in April 2008.


Findings
                                                                                                              10


     • In 2007 (after problems at DFW TRACON began to surface), FAA
       Headquarters 13 and Service Center personnel began to closely scrutinize all
       pilot deviations with a loss of separation to determine if Air Traffic actions
       contributed to the incident.

     • ATO Headquarters Safety personnel improved its oversight of the terminal
       facilities’ 2-hour monthly radar audits. For example, facilities can now be
       selected more than once per year and are not notified in advance that their data
       will be audited by Headquarters. These changes have improved the facility’s
       reporting of operational errors. For example, 6 months prior to implementing
       these changes, facilities reported no operational errors as a result of their
       monthly audits. Three months after these new procedures were implemented,
       facilities identified 10 operational errors and 3 proximity events as a result of
       their monthly audits.

     • FAA’s Evaluation and Investigation office now has 34 permanent staff plus
       9 additional personnel on detail.

     • FAA plans to establish a process whereby ATO Headquarters Safety personnel
       will review pilot deviations after Flight Standards investigations are completed.

     • Finally, in response to our DFW TRACON report, the ATO’s Chief Operating
       Office directed the VP for Safety Services to conduct a complete, “top-to-
       bottom” review of ATO Safety Services to determine what additional resources
       are required to meet its responsibilities.

As part of this ongoing review, FAA plans to establish an independent quality
assurance function in the ATO Service Areas that will report directly to the ATO’s
VP for Safety Services. This function will continually oversee event reporting,
make event determinations (i.e., whether a loss of separation is pilot or controller
error), and ensure audit data integrity of facility reports. This change will transfer
the responsibility for event determination from the facility manager to this new
office. FAA expects to complete all of these organizational changes by the
summer of 2009.

These actions should help alleviate ATO Safety Office staffing issues and improve
oversight at the national and Service Area levels. Nevertheless, additional actions
are still needed in three areas.

     • First, FAA needs to closely monitor the planned actions to ensure they are
       completed in a timely manner. These actions include hiring a permanent

13
     Reviews are being conducted by ATO staff from Safety’s Evaluations and Investigations Office and En Route and
     Oceanic’s Quality Assurance and Safety Office and by Aviation Safety’s Air Traffic Safety Oversight group.


Findings
                                                                                   11


   Director for the Evaluations and Investigations office and formalizing
   procedures for the ATO Safety Office’s review of pilot deviations with a loss
   of separation. FAA should initiate an internal audit conducted by its
   independent Aviation Safety Oversight Office (AOV) once the planned
   changes have been implemented to determine that they are being complied
   with.

 • Second, once the ATO transfers the event determination responsibility from
   the facility to its independent quality assurance staff located in the Service
   Areas, Flight Standards should provide a liaison from its regional offices (co-
   located with the ATO Safety Areas) to assist ATO Safety staff in the event
   determinations when losses of separation occur. By doing so, Flight Standards
   will have more timely input into losses of separations that were or should have
   been classified as a pilot deviation rather than waiting until after the entire
   ATO investigation process is completed.

 • Finally, FAA needs to ensure that it thoroughly evaluates the accuracy of
   reporting during its ATO Safety facility audit process. ATO Safety
   Evaluations staff is required to conduct audits of all Air Traffic facilities once
   every 3 years. The audits provide an independent method of assessing the
   facility’s compliance with FAA directives and procedures, including its
   processes for investigating and reporting losses of separation.

In the case of DFW TRACON, the facility audit (which was completed just
4 months prior to our investigation at the facility) did not effectively identify
operational error reporting weaknesses. Specifically, in March 2007, the ATO’s
facility evaluations group conducted a facility audit of DFW TRACON but did not
identify operational error reporting problems. Further, the evaluators concluded
that the TRACON’s QAR process met requirements and noted that its review of
QARs revealed a “commendable” process. However, our investigation at DFW
(started only a few months later in July 2007) revealed that 23 (37 percent) of the
62 misreported operational errors and deviations were originally recorded as non-
event QARs. Therefore, the thoroughness of facility audits in evaluating the
accuracy of operational error reporting is highly questionable.

We also found that the procedures for documenting and investigating QARs varied
at the facilities we visited. At one facility, we identified significant weaknesses in
the QAR procedures. For example, at one location visited, after initiating a QAR
to investigate a possible incident, managers either did not complete the
investigation or failed to document the results of the investigation as required.
Such weaknesses could indicate that the facility has a lax investigation process,
which could lead to inaccurate reporting. Therefore, it is important that during its
facility audit process, that ATO Safety personnel thoroughly review the facilities’
QAR process.

Findings
                                                                                 12


RECOMMENDATIONS
We recommend that FAA:

1. Establish a follow-up mechanism to ensure that Flight Standards Service
   inspectors are complying with new guidance for investigating pilot deviations
   issued in February, March, and July of 2008.

2. Require that radar replay data for pilot deviations with a loss of separation be
   retained for 2½ years (similar to retention requirements for voice data).

3. Establish a process to rate the severity of pilot deviations that cause a loss of
   separation and establish a corresponding goal to reduce the most severe
   incidents.

4. Develop milestones for implementing TARP as a full-time separation
   conformance tool.

5. Initiate an internal AOV audit of the planned changes to the ATO’s safety
   oversight process to ensure compliance with the new procedures.

6. Assign a regional Flight Standards liaison to assist the ATO Safety Services
   staff in determining whether losses of separation are pilot or controller errors.

7. Modify the ATO facility audit process by including requirements to
   specifically review facility QARs to determine if incidents reported as “non-
   events” were accurately classified.




Recommendations
                                                                                 13


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on December 30, 2008, and received its
response on March 12, 2009. In its response, FAA agreed with recommendations
1, 2, 4, 5, and 7 and provided acceptable corrective actions. FAA did not agree
with recommendations 3 and 6. FAA’s response is summarized below and
included in its entirety in the appendix to this report.

Recommendation 1: FAA concurred and stated that it will develop a follow-up
process to ensure inspector compliance with new guidance for investigating pilot
deviations by December 31, 2009. FAA’s response, planned actions, and target
date meet the intent of our recommendation.

Recommendation 2: FAA partially concurred and stated that it suggests that the
recommendation be modified to state that radar and voice data retention
requirements be the same for both operational errors and pilot deviations with a
loss of separation, and that retained data be required to allow subsequent audit and
confirmation of loss categorization. FAA further stated that “Air Traffic
Oversight Services (ATO-S), the ATO System Operations Service (ATO-R), and
the Flight Standards Service (AFS) will coordinate their organizations’ respective
directives to ensure common and compatible data retention requirements are
published by September 30, 2009.” FAA’s alternative actions and target date
address the intent of our recommendation.

Recommendation 3: FAA non-concurred and stated that it “addresses the
seriousness of the violation during the investigation and adjusts punishment
according to the degree of the violation.” However, our recommendation was not
aimed at rating the severity of pilot deviations to assess punitive actions against
pilots on a case-by-case basis. Rather, we intended for FAA to assess the severity
of incidents to advance its risk-based approach to safety oversight. This would
allow FAA to gather macro-level data, which it could use to identify possible
trends, potentially systemic issues, and corrective actions needed at the national
level.

FAA already uses a similar severity rating approach to identify systemic issues for
virtually all other aviation incidents including operational errors, near midair
collisions, and runway incursions. In fact, FAA currently rates the severity of
pilot deviations that occur on the ground (i.e., runway incursions) but not pilot
deviations that occur in the air. Given that aviation safety is FAA’s primary
mission, we are concerned that the Agency would bypass an opportunity to
advance its risk-based safety oversight by gathering data on the most severe pilot
deviations to identify systemic issues and taking actions to address the root causes



Agency Comments and Office of Inspector General Response
                                                                                    14


at the national level. We believe FAA needs to reconsider its position and
therefore consider this recommendation unresolved.

Recommendation 4: FAA concurred and stated that it has established in its
FY 2009 Business Plan several milestones and target dates for implementing
TARP. FAA’s response, planned actions, and target dates meet the intent of our
recommendation.

Recommendation 5: FAA concurred and stated that “AOV currently has an
established audit mechanism that will evaluate any planned changes in ATO’s
Safety Oversight process when they are developed.” FAA’s response addresses
the intent of our recommendation, but we request that FAA provide us with target
dates for evaluating the planned changes to the ATO’s safety oversight process.

Recommendation 6: FAA non-concurred and stated that “ATO-S will continue
to work with [aviation safety inspectors] to resolve reported violations of air traffic
rules and procedures, eliminating the need to assign a regional Flight Standards
Liaison.” However, the intent of our recommendation was to allow Flight
Standards to have more timely input into losses of separations that were or should
have been classified as a pilot deviation rather than waiting until after the entire
ATO investigation process is completed. FAA’s response seems to indicate that it
intends to simply maintain the status quo. We therefore request that FAA
reconsider its position on how it plans to ensure that Flight Standards has input
into the accurate classification of losses of separation at the “front end” of the
process. Accordingly, we consider this recommendation unresolved.

Recommendation 7: FAA concurred and stated that ATO-S is revising both its
requirements for conducting Quality Assurance Reviews (QARs) and its audit
processes in general. FAA expects to complete this effort by September 30, 2009.
FAA’s response, planned actions, and target date meet the intent of our
recommendation.

ACTIONS REQUIRED
We consider FAA’s planned actions and target dates for recommendations 1, 2, 4,
and 7 to be responsive. These recommendations are considered resolved pending
completion of these actions. While FAA’s actions to address recommendation 5
are also responsive, we request that FAA provide target dates for completion. In
accordance with DOT Order 8000.1C, we request that FAA reconsider its position
regarding recommendations 3 and 6. Please provide your written response
regarding recommendations 3, 5, and 6 within 30 days of this report.




Agency Comments and Office of Inspector General Response
                                                                                  15



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. The audit was conducted between November 2007
and December 2008. The following scope and methodology were used in
conducting this review.

To determine whether the reporting problems that occurred at DFW TRACON
were occurring at other facilities, we verified the accuracy of how pilot deviation,
QARs and OEDP alerts were classified. Specifically, we statistically reviewed
166 pilot deviations with a loss of separation that occurred during FY 2007 at
13 Air Traffic facilities. We also judgmentally selected 206 QAR and OEDP
alerts that occurred at 10 facilities in FY 2008, which the facilities determined not
to be operational errors. Our methodology in reviewing these events was
consistent with the methodology used during our review of DFW TRACON.

To determine if pilot deviations, QARs and OEDP alerts were classified
accurately, we:

 • reviewed radar and voice data.
 • reviewed preliminary and final pilot deviation reports and related
   documentation.
 • reviewed QAR reports and related documentation.
 • reviewed OEDP alert logs and related documentation.
 • interviewed ATC and flight standards personnel as needed.
 • reviewed operational error documentation if the pilot deviation was also an
   operational error.

To evaluate FAA’s policies and procedures and identify the roles and
responsibilities for reporting and investigating these incidents we did the
following:

 • Interviewed representatives from the following Air Traffic Organization
   (ATO) offices:

   - ATO Safety Services, Evaluations and Investigations and Vice President for
     Safety


Exhibit A. Scope and Methodology
                                                                                   16


   - ATO Terminal Service, Quality Assurance
   - En Route and Oceanic Services, Quality and Safety Assurance
   - Two Service Area, Service Centers (see exhibit B)
   - Ten Air Traffic Control facilities (see exhibit B), including Air Traffic
     Managers, Operations Managers, Quality Assurance and Safety Managers,
     and quality assurance staff.

 • Interviewed representatives from the following Aviation Safety offices:

   - Air Traffic Safety Oversight Services
   - Flight Standards Service-Quality Assurance
   - Five Flight Standards District Offices (see exhibit B)
   - One Regional Flight Standards Division Office

 • Reviewed the following FAA guidance:

   - FAA Order 7210.56C, Air Traffic Quality Assurance Order and related
     Notices and changes.
   - FAA Order 8900.1, Flight Standards Information Management System
     (FSIMS) and related Notices.
   - FAA Order 8020.11B,       Aircraft Accident and Incident, Notification,
     Investigation, and Reporting.
   - FAA Order 8020.16, Air Traffic Organization Aircraft Accident and
     Incident, Notification, Investigation, and Reporting.
   - FAA Order 7110.65R, Air Traffic Control.
   - Flight Standards Quality Management System, QPM # AFS 001-020, Pilot
     Deviation Process.

 • Reviewed the implementation status of TARP.

To determine the accuracy and completeness of the pilot deviation database used
to select our statistical sample, we judgmentally sampled pilot deviation reports
not included in our sample at facilities visited to ensure they did not involve a loss
a separation. We also compared these reports to the pilot deviations listed on the
national pilot deviation database.




Exhibit A. Scope and Methodology
                                                              17



EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED

FAA Headquarters, Washington, DC
  • ATO Safety Services
   • ATO En Route and Oceanic Services
   • ATO Terminal Services
   • Aviation Safety - Flight Standards Service
   • Aviation Safety - Air Traffic Safety Oversight Service

Service Areas/Regional Offices
  • Eastern Service Center, Safety Assurance Group
   • Western Service Center, Safety Assurance Group
   • Northwest Mountain Region Flight Standards

Air Traffic Control Facilities
   • Atlanta En Route Center
   • Atlanta TRACON
   • Chicago TRACON
   • Cleveland En Route Center
   • Denver En Route Center
   • Los Angeles En Route Center
   • Miami En Route Center
   • Northern California TRACON
   • Salt Lake TRACON
   • Southern California TRACON

Flight Standards District Offices (FSDO)
   • Atlanta FSDO
   • Denver FSDO
   • Los Angeles FSDO
   • Riverside FSDO
   • Sacramento FSDO



Exhibit B. Organizations Visited or Contacted
                                                                                  18



EXHIBIT C. PRIOR AUDIT REPORTS
Since 2000, we have issued three audit reports on operational errors.

 • OIG Report Number AV-2001-11, “Actions To Reduce Operational Errors and
   Deviations Have Not Been Effective,” December 15, 2000.

 • OIG Report Number AV-2003-040, “Operational Errors and Runway
   Incursions,” April 3, 2003.

 • OIG Report Number AV-2004-085, “Controls Over the Reporting of
   Operational Errors,” September 20, 2004.

In our 2000 and 2004 reports, we specifically addressed the need for FAA to
improve controls over the reporting operational errors as described below.

In December 2000, we reported that FAA was at risk of underreporting
operational errors at terminal facilities because, at these facilities, FAA relied on
controller self-reporting. Further, adequate documentation was not always
available to confirm if an operational error occurred because radar and voice tapes
were retained for only 15 days. We recommended that FAA implement NTSB’s
recommendation to extend the retention period for voice and radar tapes from
15 days to 45 days.

At the time, FAA indicated that it could not extend the retention period for radar
and voice data because it would create a storage problem. Therefore, it agreed to
retain voice tapes and radar data for 45 days only for known or suspected
incidents. Since that time FAA has updated its terminal radar and voice data with
digital technology and now retains these data for 45 days.

In September 2004, we again reported that operational errors were at risk of being
underreported because of FAA’s reliance on self-reporting at terminal facilities.
At the time of our report, FAA indicated that because of the complexity of the
airspace in the terminal environment, it could not develop an automated system to
identify when operational errors occur.

In response to our 2004 recommendations, FAA established procedures in 2005
that requires terminal facilities to conduct monthly audits of radar data to identify
potential unreported operational errors. Additionally, FAA Headquarters officials
were also required to randomly review facility audit results to ensure compliance.
Since that time, FAA began to develop a system (TARP) to automatically identify
operational errors at terminal facilities. FAA is now implementing this system.




Exhibit C. Prior Audit Reports
                                                           19



EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT
   Name                                 Title

   Daniel Raville                       Program Director

   Liz Hanson                           Project Manager

   Mark Gonzales                        Senior Analyst

   Tasha Thomas                         Analyst

   Kevin Montgomery                     Analyst

   Andrea Nossaman                      Writer-Editor




Exhibit D. Major Contributors to This Report
                                                                                                  20


APPENDIX. AGENCY COMMENTS


                     Federal Aviation
                     Administration

Memorandum
Date:           March 12, 2009
To:             Lou Dixon, Assistant Inspector General for Aviation and Special Program Audits
From:          Ramesh K. Punwani, Assistant Administrator for Financial Services/CFO
Prepared by: Anthony Williams, x79000
Subject:        OIG Draft Report: FAA’s Process for Reporting and Investigating Operational
                Errors Federal Aviation Administration


Thank you for the opportunity to review and comment on the findings and recommendations of
the subject draft report dated December 30, 2008. The Federal Aviation Administration (FAA)
concurs with Recommendations 1, 4, 5, and 7; nonconcurs with Recommendations 3, and 6; and
partially concurs with Recommendation 2.

The following is the Agency’s response to each of your Recommendations.

OIG Recommendation 1: Establish a follow-up mechanism to ensure that Flight Standards
Service inspectors are complying with new guidance for investigating pilot deviations issued in
February, March, and July 2008.

FAA Response: Concur. Flight Standards agrees and will develop a follow up process to ensure
inspector compliance by December 31, 2009.

OIG Recommendation 2: Require that radar replay data for pilot deviations with a loss of
separation be retained for 2 ½ years (similar to retention requirements for voice data).

FAA Response: Partially concur with comment. ATO Directives currently require 2 ½ year
retention of supporting radar data for pilot deviations similar to those required for voice and radar
data in operational error investigations. However, current radar data retention requirements do
not specifically require playback capability. The FAA suggests that this Recommendation be
modified to state that “radar and voice data retention requirements be the same for both
operational errors and pilot deviations with a loss of separation, and that retained data be required
to allow subsequent audit and confirmation of loss categorization”.




Appendix. Agency Comments
                                                                                               21


Air Traffic Oversight Service (ATO-S), the ATO System Operations Service (ATO-R), and the
Flight Standards Service (AFS) will coordinate their organizations respective directives to ensure
common and compatible data retention requirements are published by September 30, 2009.

OIG Recommendation 3: Establish a process to rate the severity of pilot deviations that cause a
loss of separation and establish a corresponding goal to reduce the most severe incidents.

FAA Response: Nonconcur. Any violation of a Federal Air Regulation contained with the Code
of Federal Regulation is treated as a serious violation. FAA addresses the seriousness of the
violation during the investigation and adjusts punishment according to the degree of the
violation. Each violation is addressed in its entirety. We will continue to focus our efforts on
pilot education to reduce all forms of violations and continue to look for additional ways to
measure the events.

OIG Recommendation 4: Develop milestones for implementing Traffic Analysis and Review
Program (TARP) as a full-time separation conformance tool.

FAA Response: Concur. FAA has established in its Fiscal Year 2009 Business Plan the
following milestones for implementing TARP. Complete TARP audit tool implementation at
first 50 percent of applicable terminal sites by April 30, 2009. Finalize TARP Phase II
implementation strategy plan by April 30, 2009. Complete TARP audit tool implementation at
80 percent of all applicable terminal sites by September 30, 2009. Continue the development and
deployment of TARP with a targeted completion of Terminal Implementation by December 30,
2009 and NAS-wide implementation by
September 30, 2011.

OIG Recommendation 5: Initiate an internal AOV audit of the planned changes to the ATO’s
Safety Oversight process to ensure compliance with the new procedures.

FAA Response: Concur. AOV currently has an established audit mechanism that will evaluate
any planned changes in ATO's Safety Oversight process when they are developed.

OIG Recommendation 6: Assign a regional Flight Standards Liaison to assist the ATO Safety
Services staff in determining whether losses of separation are pilot or controller errors.

FAA Response: Nonconcur. Aviation Safety Inspectors (ASIs) do not have the background or
training in the rules and regulations required of Air Traffic Controllers. However, ASIs should
be responsible for the investigation into any reported violation of a Federal Air Regulation.
Therefore, ATO-S will continue to work with ASIs to resolve reported violations of air traffic
rules and procedures, eliminating the need to assign a regional Flight Standards Liaison.

OIG Recommendation 7: Modify the ATO facility audit process by including requirements to
specifically review facility QARs to determine if incidents reported as “non-events” were
accurately classified.

FAA Response: Concur. ATO-S is currently in the process of revising both its requirements for
conducting Quality Assurance Reviews (QARs) and its audit processes in general. In both cases,
it is the goal of ATO-S to improve the ATO’s accuracy and completeness in reporting losses of
separation and other indicators of risk. ATO-S will develop revised QAR, or similar risk


Appendix. Agency Comments
                                                                                                22


indicator report(s), definition(s) and processes by September 30, 2009. ATO-S will establish
specific audit processes and requirements to review facilities’ accuracy and effectiveness in
investigating suspected losses of separation.




Appendix. Agency Comments
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here to
accommodate assistive technology.
                FAA’s Process for Reporting and Investigating Operational Errors

                                    Section 508 Compliant Presentation

     Figure 1. FAA’s Process for Reporting and Investigating Incidents Involving a
     Loss of Separation

          • Loss of separation identified by Air Traffic facility. Initial determination is made
            if the incident was controller or pilot error.

          • If the loss of separation is determined to be a pilot error, the Air Traffic facility
            forwards the preliminary report to the Flight Standards inspector who completes
            the investigation and final report. The Air Traffic facility also copies the
            appropriate Air Traffic Organization (ATO) Service Area and Unit on the
            preliminary report that it sends to Flight Standards.

          • If the loss of separation is determined to be a controller error, the Air Traffic
            Facility prepares preliminary investigation report and forwards the report to
            appropriate ATO Service Area and Unit for review. The Air Traffic facility
            completes the investigation and final report and forwards the final report to the
            appropriate ATO Service Area and Unit for review. The ATO Service Area and
            Unit review both the preliminary and final reports sent from the Air Traffic
            Facility. After review, the ATO Service Area and Unit forward the report to
            Headquarters ATO Safety office for review. The ATO Safety Office conducts the
            final review.

     Table. Office of Inspector General Review of Pilot Deviation and Quality
     Assurance Reviews (QARs) and Operational Error Detection Program (OEDP)
     Alerts - Sample Results by Facility

Atlanta          Pilot deviations       Pilot deviations that     QAR and OEDP          QAR and OEDP
TRACON           reviewed: 11           should be classified as   alerts reviewed: 13   alerts that should be
                                        operational errors: 0                           classified as
                                                                                        operational errors: 0
Chicago          Pilot deviations       Pilot deviations that     QAR and OEDP          QAR and OEDP
TRACON           reviewed: 10           should be classified as   alerts reviewed: 13   alerts that should be
                                        operational errors: 1                           classified as
                                                                                        operational errors:
                                                                                        1 (Proximity
                                                                                        Event)
Northern         Pilot deviations   Pilot deviations that     QAR and OEDP              QAR and OEDP
California       reviewed: 9        should be classified as   alerts reviewed: 13       alerts that should be
TRACON                              operational errors: 0                               classified as
                                                                                        operational errors: 0

Salt Lake        Pilot deviations   Pilot deviations that     QAR and OEDP              QAR and OEDP
TRACON           reviewed: 5        should be classified as   alerts reviewed: 10       alerts that should be
                                    operational errors: 0                               classified as
                                                                                        operational errors: 0
Southern         Pilot deviations   Pilot deviations that     QAR and OEDP              QAR and OEDP
California       reviewed: 31       should be classified as   alerts reviewed: 14       alerts that should be
TRACON                              operational errors: 0                               classified as
                                                                                        operational errors: 0
Atlanta Center   Pilot deviations   Pilot deviations that     QAR and OEDP              QAR and OEDP
                 reviewed: 30       should be classified as   alerts reviewed: 19       alerts that should be
                                    operational errors: 0                               classified as
                                                                                        operational errors: 0
Cleveland        Pilot deviations   Pilot deviations that     QAR and OEDP              QAR and OEDP
Center           reviewed: 11       should be classified as   alerts reviewed: 30       alerts that should be
                                    operational errors: 0                               classified as
                                                                                        operational errors: 0
Denver           Pilot deviations   Pilot deviations that     QAR and OEDP              QAR and OEDP
Center           reviewed: 11       should be classified as   alerts reviewed: 30       alerts that should be
                                    operational errors: 0                               classified as
                                                                                        operational errors: 1
                                                                                        (Proximity Event)
Los Angeles      Pilot deviations   Pilot deviations that     QAR and OEDP              QAR and OEDP
Center           reviewed: 24       should be classified as   alerts reviewed: 40       alerts that should be
                                    operational errors: 0                               classified as
                                                                                        operational errors: 0
Miami Center     Pilot deviations   Pilot deviations that     QAR and OEDP              QAR and OEDP
                 reviewed: 13       should be classified as   alerts reviewed: 24       alerts that should be
                                    operational errors: 0                               classified as
                                                                                        operational errors: 0
Minneapolis      Pilot deviations   Pilot deviations that     QAR and OEDP              QAR and OEDP
TRACON           reviewed: 1        should be classified as   alerts reviewed: not      alerts that should be
                                    operational errors: 0     applicable (We did        classified as
                                                              not visit this facility   operational errors:
                                                              and therefore did         not applicable
                                                              not review its QAR
                                                              or OEDP alerts.)
Portland         Pilot deviations     Pilot deviations that     QAR and OEDP              QAR and OEDP
TRACON           reviewed: 2          should be classified as   alerts reviewed: not      alerts that should be
                                      operational errors: 0     applicable (We did        classified as
                                                                not visit this facility   operational errors:
                                                                and therefore did         not applicable
                                                                not review its QAR
                                                                or OEDP alerts.)


Seattle Center   Pilot deviations     Pilot deviations that     QAR and OEDP              QAR and OEDP
                 reviewed: 8          should be classified as   alerts reviewed: not      alerts that should be
                                      operational errors: 0     applicable (We did        classified as
                                                                not visit this facility   operational errors:
                                                                and therefore did         not applicable
                                                                not review its QAR
                                                                or OEDP alerts.)

        Total pilot deviations reviewed: 166. Total pilot deviations that should be classified as
        operational errors: 1

        Total QAR and OEDP alerts reviewed: 206. Total QAR and OEDP alerts that should
        be classified as operational errors: 2



        Figure 2. Radar Display of a Serious Pilot Deviation

        Figure 2 shows a radar display of a pilot deviation (while under the control of the
        Seattle en route center) that, if categorized in the same method as operational errors,
        would have been rated as a category B event. The event occurred when a military
        pilot (labeled on the screen as EXP094) took his plane above his assigned altitude and
        conflicted with a regional air carrier (labeled on the screen as QXE397). The aircraft
        came within 300 feet vertically and 2.96 miles horizontally of each other.
